November 22, 2011


Memorandum for:               The Federal Co-Chair
                              ARC Executive Director

Subject:                      OIG Report 12-01
                              Fiscal Year 2011 Financial Statement Audit


The enclosed report presents the results of the audit of the Commission’s financial statements for
the fiscal year ended September 30, 2011. The report should be read in conjunction with the
Commission’s financial statements and notes to fully understand the context of the information
contained therein.

The Appalachian Regional Commission (ARC) contracted with the independent certified public
accounting firm of Martin & Wall, which became a division of Chortek & Gottschalk, LLP
(C&G), to audit the financial statements of the Commission as of and for the fiscal year ended
September 30, 2011. The contract required that the audit be conducted in accordance with U.S.
generally accepted government auditing standards and OMB audit guidance. ARC’s Office of
Inspector General monitored audit activities to help ensure audit quality.

The following results were noted from C&G’s audit of ARCs financial statements for the fiscal
year ended September 30, 2011.

   C&G expressed an unqualified opinion on ARC’s financial statements and reported that they
    were presented fairly in all material respects, in accordance with U.S. generally accepted
    accounting principles.

   C&G was not contracted for and did not provide an opinion on the effectiveness of ARC’s
    internal controls. However, C&G did state that they did not identify any deficiencies in
    internal control that were considered to be material weaknesses, relative to their expressing
    an opinion on ARC’s financial statements.

   No significant deficiencies were reported.

   C&G did not express an opinion on compliance with laws and regulations, but noted no
    instances of non-compliance with laws or regulations required to be reported under the
    provisions of OMB audit guidance.
In connection with the contract, we reviewed Chortek & Gottschalk’s report and related
documentation and inquired of its representatives. Our involvement in the audit process
consisted of monitoring of audit activities, reviewing auditor independence and qualifications,
attending meetings, participating in discussions, and reviewing audit planning and conclusion
workpapers and reports. Our review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to express, and
we do not express, opinions on the Appalachian Regional Commission’s financial statements,
conclusions about the effectiveness of internal control, or conclusions about compliance with
laws and regulations. Chortek & Gottschalk is responsible for the attached auditor’s report dated
November 16, 2011 and the conclusions expressed in the report. However, our review disclosed
no instances where Chortek & Gottschalk did not comply, in all material respects, with U.S.
generally accepted government auditing standards.




Hubert Sparks
Inspector General


Attachment

cc: Director, Finance and Administration Division
 APPALACHIAN REGIONAL COMMISSION




         FINANCIAL STATEMENTS

For The Years Ended September 30, 2011 and 2010
                                           TABLE OF CONTENTS


Independent auditor’s report…................................................................................ 1-4

Balance sheets……………….…............................................................................ 5

Statements of net cost ………………………........................................................ 6

Statements of changes in net position..................................................................... 7-8

Statements of budgetary resources…...................................................................... 9

Notes to financial statements................................................................................... 10-28

Appendix A: Appalachian Regional Commission Comments on Draft Audit Report
                                     Independent Auditor’s Report


Inspector General, Commission Members and Executive Director
Appalachian Regional Commission
Washington, DC


In accordance with the Accountability of Tax Dollars Act of 2002, we are responsible for conducting audits
of the Appalachian Regional Commission. We have audited the accompanying balance sheets of the
Appalachian Regional Commission as of September 30, 2011 and 2010 and the related statements of net
cost, changes in net position, and budgetary resources for the years then ended.

The objective of our audits was to express an opinion on the fair presentation of these financial
statements. In connection with our audits, we also considered the Appalachian Regional Commission’s
internal control over financial reporting and tested the Appalachian Regional Commission’s compliance
with selected provisions of applicable laws and regulations that could have a direct and material effect on
these financial statements.

Summary

In our audits of the Appalachian Regional Commission for the fiscal years ended September 30, 2011
and 2010, we found:

    •   the financial statements are presented fairly, in all material respects, in conformity with U.S.
        generally accepted accounting principles,
    •   no material weaknesses in internal control over financial reporting (including safeguarding
        assets),
    •   no reportable noncompliance with laws and regulations we tested.

The following sections discuss our opinion on the Commission’s financial statements; our consideration of
the Commission’s internal controls over financial reporting; our tests of the Commission’s compliance with
certain provisions of applicable laws, regulations, contracts and grant agreements; and management’s
and our responsibilities.

Opinion on Financial Statements

We have audited the accompanying balance sheets of the Appalachian Regional Commission as of
September 30, 2011 and 2010 and the related statements of net cost, changes in net position, and
budgetary resources for the years then ended.
In our opinion, the financial statements referred to above, including the accompanying notes, present
fairly, in all material respects, the financial position of the Appalachian Regional Commission, as of
September 30, 2011 and 2010, and its net costs, changes in net position, and budgetary resources for
the years then ended, in conformity with U.S. generally accepted accounting principles. We also audited
the adjustments in Note 13 Restatements that were applied to restate the 2010 financial statements. In
our opinion, such adjustments are appropriate and have been properly applied.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship
Information and Required Supplementary Information section is not a required part of the financial
statements, but is supplemental information required by U.S. generally accepted accounting principles.
We have applied certain limited procedures, which consisted of principally inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit
this information and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements, fraud or noncompliance in amounts that would be material to the
financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section and was not designed to identify all deficiencies in internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal years
2011 and 2010 audits, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above.

We noted certain additional matters that we reported to the Commission’s management addressing
internal control matters.

Compliance and Other Matters

The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Responsibilities

Management Responsibilities: Appalachian Regional Commission’s management is responsible for (1)
preparing the financial statements in conformity with U.S. generally accepted accounting principles, (2)
establishing and maintaining effective internal control, (3) complying with laws, regulations, contracts and
grant agreements applicable to the Commission.

Auditor’s Responsibilities: Our responsibility is to express an opinion on the fiscal years 2011 and 2010
financial statements of the Appalachian Regional Commission based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin No. 07-04, as amended. Those standards
and OMB Bulletin 07-04, as amended, require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are

                                                     2
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Appalachian Regional Commission’s internal control over financial reporting. Accordingly, we express
no such opinion.

An audit also includes:

    •   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
        statements;
    •   Assessing the accounting principles used and significant estimates made by management;
    •   Evaluating the overall financial statement presentation;
    •   Obtaining an understanding of the entity and its operations, including its internal control related to
        financial reporting (including safeguarding assets), and compliance with laws and regulations
        (including execution of transactions in accordance with budget authority);
    •   Considering the design of the process for evaluating and reporting on internal control;
    •   Testing compliance with selected provisions of laws, regulations, grants and contracts applicable
        to the Commission that could have a direct and material effect on the financial statements.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal years 2011 and 2010 audits, we considered the Appalachian
Regional Commission’s internal control over financial reporting by obtaining an understanding of the
Commission’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing procedures
for the purpose of expressing an opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the Commission’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Commission’s internal control over
financial reporting. We did not test all internal controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982. Because of inherent limitations in internal
control, misstatements due to error or fraud, losses, or noncompliance may nevertheless occur and not
be detected. We also caution that projecting our evaluation to future periods is subject to the risk that
controls may become inadequate because of changes in conditions or that the degree of compliance with
controls may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

As part of obtaining reasonable assurance about whether the Appalachian Regional Commission’s fiscal
years 2011 and 2010 financial statements are free of material misstatement, we performed tests of the
Commission’s compliance with certain provisions of laws, regulations, contracts and grant agreements,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No.
07-04, as amended. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws, regulations, contracts and grant agreements
applicable to the Commission. However, providing an opinion on compliance with laws, regulations,
contracts and grant agreements was not an objective of our audits, and accordingly, we do not express
such an opinion. We caution that noncompliance may occur and not be detected by these tests and that
such testing may not be sufficient for other purposes.




                                                      3
Agency Comments and Our Evaluation

In commenting on a draft of this report (see Appendix A), the Appalachian Regional Commission
concurred with the facts and conclusions in our report.

Use and Distribution of Report

This report is intended solely for the information and use of the Appalachian Regional Commission’s
management, Office of Inspector General, Commissioners, U.S. Office of Management and Budget, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not
be used by anyone other than these specified parties.




Washington, DC
November 16, 2011




                                                 4
                                            APPALACHIAN REGIONAL COMMISSION

                                                              BALANCE SHEETS
                                                    As Of September 30, 2011 and 2010


                                                                                                         2011                2010

Assets:
  Intragovernmental:
   Fund Balance With Treasury                                                 (Notes 1 & 2)        $    167,528,946    $ 168,564,095
   Advances                                                                   (Notes 1 & 3)               9,343,287       13,756,610
  Total Intragovernmental                                                                               176,872,233      182,320,705

   Cash in commercial institutions                                                 (Note 1)                  60,136             79,028
  Accounts Receivable, net                                                     (Note 1 & 4))              1,022,750
   Advances                                                                   (Notes 1 & 3)              31,296,826       34,932,837
Total Assets                                                                                       $    209,251,946    $ 217,332,571


Liabilities:                                                                       (Note 5)
   Intragovernmental:
      Other                                                                   (Notes 5 & 6)        $         202,720   $       106,193
   Total Intragovernmental                                                                                   202,720           106,193

    Liabilities With the Public:
    Accounts Payable                                                         (Notes 1 & 5)                 6,540,853         4,063,127
    Other                                                                  (Notes 1, 5 & 6)                1,651,997         1,852,971
    Total Liabilities With the Public                                                                      8,192,849         5,916,098
    Total Liabilities                                                                                      8,395,569         6,022,292


Net Position:
  Unexpended Appropriations - Other Funds                                                               199,772,812        210,686,787
  Cumulative Results of Operations - Earmarked Funds                               (Note 9)               1,247,394            843,602
  Cumulative Results of Operations - Other Funds                                                           (163,828)          (220,109)
  Total Net Position                                                                                    200,856,378        211,310,279
Total Liabilities and Net Position                                                                 $    209,251,946    $ 217,332,571

*Amounts may be off by a dollar due to rounding.




                                      The accompanying notes are an integral part of these financial statements.

                                                                          5
                              APPALACHIAN REGIONAL COMMISSION

                                           STATEMENTS OF NET COST
                            For The Years Ended September 30, 2011 and 2010


                                                                                   2011                 2010

Program Costs:
   Program A:
      Gross Costs                                              (Note 10)      $ 82,927,382          $   68,738,122
      Less: Earned Revenue                                                       4,137,540               5,520,729
      Net Program Costs                                                         78,789,842              63,217,393

Net Cost of Operations                                                        $ 78,789,842          $   63,217,393
*Amounts may be off by a dollar due to rounding.




                       The accompanying notes are an integral part of these financial statements.

                                                           6
                                             APPALACHIAN REGIONAL COMMISSION

                                               STATEMENT OF CHANGES IN NET POSITION
                                                   For The Year Ended September 30, 2011

                                                                                                              2011

                                                                                    Earmarked                                  Consolidated
                                                                                      Funds            All Other Funds            Total

Cumulative Results of Operations:
Beginning Balances                                                              $      843,602         $           (220,109)   $      623,493

Budgetary Financing Sources:
  Appropriations Used                                                                                         79,177,174            79,177,174
  Transfers-In/Out Without Reimbursement                                              4,091,000               (4,091,000)
  Other

Other Financing Resources (Non-Exchange):
   Imputed Financing                                                                                              72,740                72,740
Total Financing Sources                                                               4,091,000               75,158,915            79,249,915
Net Cost of Operations (+/-)                                                          3,687,208               75,102,634            78,789,842
Net Change                                                                              403,792                   56,280               460,072

Cumulative Results of Operations                                                $     1,247,394        $           (163,828)   $     1,083,565

Unexpended Appropriations:
Beginning Balances                                                              $                      $    210,686,787        $   210,686,787

Budgetary Financing Sources:
   Appropriations Received                                                                                   68,400,000             68,400,000
   Other Adjustments                                                                                           (136,800)              (136,800)
   Appropriations Used                                                                                      (79,177,174)           (79,177,174)
   Total Budgetary Financing Sources                                                                        (10,913,974)           (10,913,974)
Total Unexpended Appropriations                                                                             199,772,812            199,772,812

Net Position                                                                    $     1,247,394        $    199,608,984        $   200,856,378
*Amounts may be off by a dollar due to rounding.




                                      The accompanying notes are an integral part of these financial statements.

                                                                          7
                                          APPALACHIAN REGIONAL COMMISSION

                                            STATEMENT OF CHANGES IN NET POSITION
                                                   For The Year Ended September 30, 2010

                                                                                                         2010


                                                                               Earmarked                              Consolidated
                                                                                 Funds           All Other Funds         Total
Cumulative Results of Operations:
Beginning Balances                                                         $      981,354        $      79,562,090    $    80,543,444
Adjustments:
   (b) Corrections of Errors (+/-)                        (Note 13)                                    (77,097,343)       (77,097,343)
Beginning Balances, as Adjusted                                            $      981,354        $       2,464,747    $     3,446,101

Budgetary Financing Sources:
  Appropriations Used                                                                                   60,277,642         60,277,642
  Transfers-In/Out Without Reimbursement                                         3,979,000              (3,979,000)

Other Financing Resources (Non-Exchange):
   Imputed Financing                                                                                       117,143            117,143
Total Financing Sources                                                          3,979,000              56,415,785         60,394,785
Net Cost of Operations (+/-)                                                     4,116,753              59,100,641         63,217,393
Net Change                                                                        (137,753)             (2,684,856)        (2,822,608)
Cumulative Results of Operations                                           $       843,602       $        (220,109)   $       623,493


Unexpended Appropriations:
Beginning Balances                                                         $                     $    117,867,085     $   117,867,085
Adjustments:
   (b) Corrections of Errors (+/-)                        (Note 13)                                    77,097,343          77,097,343
Beginning Balances, as Adjusted                                            $                     $    194,964,429     $   194,964,429

Budgetary Financing Sources:
   Appropriations Received                                                                             76,000,000          76,000,000
   Appropriations Used                                                                                (60,277,642)        (60,277,642)
   Total Budgetary Financing Sources                                                                   15,722,358          15,722,358
Total Unexpended Appropriations                                                                       210,686,787         210,686,787

Net Position                                                               $      843,602        $    210,466,678     $   211,310,279
*Amounts may be off by a dollar due to rounding.




                                   The accompanying notes are an integral part of these financial statements.

                                                                       8
                                  APPALACHIAN REGIONAL COMMISSION

                                    STATEMENTS OF BUDGETARY RESOURCES
                                For The Years Ended September 30, 2011 and 2010

                                                                                          2011                 2010


                                                                                       Budgetary             Budgetary

Budgetary Resources:
Unobligated Balance:
  Beginning of Period                                                              $      27,765,799     $    29,357,204
Recoveries of Prior Year Obligations                                                       6,262,853           5,366,451

Budget Authority:
   Appropriations Received                                                                75,559,250          83,958,000
   Earned
      Collected                                                                               248,574          1,679,148
   Change in Unfilled Customer Orders (+/-)
      Advance Received                                                                       152,017            (606,246)
   Subtotal                                                                        $      75,959,841     $    85,030,903
Permanently Not Available                                                                   (136,800)
Total Budgetary Resources                                                          $     109,851,693     $ 119,754,557

Status of Budgetary Resources:
Obligations Incurred
   Direct                                                    (Note 11)             $      89,943,174     $    91,988,758
   Subtotal                                                                        $      89,943,174     $    91,988,758
Unobligated Balances
   Apportioned                                                                            18,723,271        25,888,467
   Exempt from Apportionment                                                                 927,545         1,856,850
   Subtotal                                                                        $      19,650,816     $ 27,745,316
Unobligated Balances - Not Available                                                         257,703            20,483
Total Status of Budgetary Resources                                                $     109,851,693     $ 119,754,557

Change in Obligated Balances:
Obligated Balance, Net:
  Unpaid Obligations, Brought Forward, October 1                                   $     140,686,735     $ 132,572,078
   Total, Unpaid Obligated Balance, Brought Forward, Net                           $     140,686,735     $ 132,572,078
Obligations Incurred                                                                      89,943,174        91,988,758
Gross Outlays (-)                                                                        (76,760,237)      (78,507,650)
Recoveries of Prior-Year Unpaid Obligations, Actual (-)                                   (6,262,853)       (5,366,451)
Obligated Balance, Net, End of Period:
    Unpaid Obligations (+)                       (Note 12)                               147,606,819       140,686,735
   Total, Unpaid Obligated Balance, Net, End of Period                             $     147,606,819     $ 140,686,735
Net Outlays:
Gross Outlays (+)                                                                         76,760,237          78,507,650
Offsetting Collections (-)                                                                  (400,591)         (1,072,903)
Less: Distributed Offsetting Receipts                                                      4,091,000           7,958,000
Net Outlays                                                                        $      72,268,646     $    69,476,747
*Amounts may be off by a dollar due to rounding.


                            The accompanying notes are an integral part of these financial statements.

                                                                9
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
Reporting Entity

The Appalachian Regional Commission (ARC) was established under the Appalachian
Regional Development Act of 1965, as amended. ARC is a regional development agency
designed to function as a federal, state, and local partnership. ARC is not a federal
executive branch agency (as defined in Title 5 and 31 of the United States Code and by
the Department of Justice).

Commission members are comprised of a federal member (Federal Co-Chair), who is
appointed by the President of the United States, and the governors of each of the 13 states
in the Appalachian Region. The state members elect a State Co-Chair from their
members. ARC has an Executive Director and Program and Administrative Offices that
implement the policies and procedures established by the Federal and State Co-Chairs.
ARC personnel are comprised of both federal and non-federal employees.

ARC supports economic and social development in the Appalachian Region. The
Appalachian Region is a 205,000 square mile region from Southern New York to
Northern Mississippi. The ARC programs affect 420 counties located in 13 states
including all of West Virginia and parts of Alabama, Georgia, Kentucky, Maryland,
Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina, Tennessee,
and Virginia.

Fund Accounting Structure

ARC's financial activities are accounted for by utilizing individual funds and fund
accounts in reporting to the U.S. Treasury and the Office of Management and Budget.
For financial statement purposes, these funds are classified as an earmarked fund and all
other funds. Earmarked funds are financed by specifically identified revenues often
supplemented by other financing sources which remain available over time. These
specifically identified revenues and other financing sources are required by statute to be
used for designated activities, benefits, or purposes and must be accounted for separately
from the Government's general revenues. ARC’s earmarked fund and all other funds are
identified as follows:

Earmarked Fund

A trust fund was established by the U.S. Treasury under the authority of the Appalachian
Regional Development Act of 1965, to receive, hold, invest, and disburse monies
collected to cover the administrative expenses of ARC excluding Federal Co-Chair’s
office and Inspector General’s office. The administrative expenses are paid equally by the
federal government and the states in the Appalachian Region as determined annually by
ARC.



                                            10
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

All Other Funds

All other funds consist of area development program funds and funding for the Office of
the Federal Co-Chair and the Office of Inspector General.

Budgets and Budgetary Accounting

ARC programs and activities are funded through no-year appropriations and
contributions from the 13 states in the Appalachian Region. Federal funds are available
without fiscal year limitation and remain available until expended. Because of the no-
year status of the funds, unobligated amounts are not returned to the U.S. Treasury.

Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes
in net position, and budgetary resources of ARC in accordance with U.S. generally
accepted accounting principles (GAAP) and form and content requirements of OMB
Circular A-136 Financial Reporting Requirements. GAAP for federal entities are the
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is the official standard-setting body for the federal government. The financial
statements have been prepared from the books and records of ARC, and include the
accounts of all funds under the control of the ARC reporting entity.

U.S. generally accepted accounting principles encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and
expenses are recognized when incurred. Budgetary accounting facilitates compliance
with legal constraints on, and controls over, the use of federal funds. These financial
statements are prepared by ARC pursuant to OMB directives and used to monitor ARC's
use of budgetary resources.

Fund Balance with U.S. Treasury

ARC's cash receipts and disbursements are processed by the U.S. Treasury. Funds with
U.S. Treasury represent obligated and unobligated no-year funds available to finance
allowable current and future expenditures.

Cash in Commercial Institutions

ARC uses commercial bank accounts to accommodate collections and payments that
cannot be processed by the U.S. Treasury. Cash in commercial institutions totaled
$60,136 and $79,028 at September 30, 2011 and 2010, respectively.




                                           11
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

Advances

ARC advances funds to other federal agencies and non-federal grantees for work
performed on its behalf under various reimbursable or grant agreements. Advances are
recorded as an asset, which is reduced when actual expenditures or the accrual of
unreported expenditures are recorded. Advances with the public primarily consist of
revolving loan fund payments. See Note 3 Advances for additional details.

These advances to revolving loan funds provide pools of funds to be made available to
grantees to create and retain jobs. These advance payments are recorded by ARC as an
asset, which is reduced if the revolving fund is terminated.

Equipment

ARC’s equipment is recorded at cost. Depreciation is computed using the straight-line
method over the estimated useful lives of the assets. The capitalization threshold is
$35,000. All equipment was fully depreciated at September 30, 2011 and 2010.

Liabilities

Liabilities represent probable amounts to be paid by ARC as a result of past transactions.
Liabilities covered by budgetary or other resources are those for which Congress has
appropriated funds or funding is otherwise available to pay amounts due.

Liabilities not covered by budgetary or other resources represent amounts owed in excess
of available congressionally appropriated funds or other amounts. The liquidation of
liabilities not covered by budgetary or other resources is dependent on future
Congressional appropriations or other funding.

Accounts Payable

Accounts payable consists of amounts owed to grantees and amounts owed to federal and
nonfederal entities for goods and services received by ARC.

Benefits Due and Payable:

Unfunded Annual Leave
Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
year, the balance in the accrued leave account is adjusted to reflect current pay rates. To
the extent current or prior year appropriations are not available to fund annual leave
earned but not taken, funding will be obtained from future financing sources. Sick leave
and other types of non-vested leave are expensed as taken.




                                            12
                            Appalachian Regional Commission
                              Notes to Financial Statements
                              September 30, 2011 and 2010

Retirement Benefits
ARC’s federal and certain non-federal employees participate in the Civil Service
Retirement System (CSRS) or the Federal Employees’ Retirement System (FERS). FERS
was established by the enactment of Public Law 99-335. Pursuant to this law, FERS and
the Social Security and the Thrift Savings Plan program automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984
elected to participate in the FERS and Social Security or to remain in CSRS.

All federal and certain non-federal employees are eligible to contribute to the Thrift
Savings Plan (TSP). For those employees participating in the FERS, a TSP account is
automatically established and ARC makes a mandatory one percent contribution to this
account. In addition, ARC makes matching contributions, ranging from one to four
percent, for FERS eligible employees who contribute to their TSP accounts. Matching
contributions are not made to the TSP accounts established by CSRS employees. FERS
employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, ARC remits the employer’s
share of the required contribution.

The Office of Personnel Management (OPM) actuaries determine pension cost factors by
calculating the value of pension benefits expected to be paid in the future and
communicate these factors to ARC. OPM also provides information regarding the full
cost of health and life insurance benefits. Reporting amounts such as plan assets,
accumulated plan benefits, and related unfunded liabilities, if any, is the responsibility of
OPM.

ARC also has a Defined Benefit Pension Plan which was open to all employees not
participating in CSRS and FERS. ARC uses a October 1 measurement date for its plan.

In February 2000 ARC established a 401(k) retirement plan that mirrors FERS. The plan
covers substantially all non-federal employees. Employees are eligible to participate in
and are fully vested in the plan upon employment. ARC’s funding policy is to make a 3%
contribution of total salary and a matching 3% of the first 50% of the participants’
contributions to the plan up to 6% of total salary.

Parent Child Reporting

ARC is a party to allocation transfers with other federal agencies as both a transferring
(parent) entity and receiving (child) entity. Allocation transfers are legal delegations by
one department of its authority to obligate budget authority and outlay funds to another
department. A separate fund account (allocation account) is created in the U.S. Treasury
as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays
incurred by the child entity are charged to this allocation account as they execute the
delegated activity on behalf of the parent entity. Generally, all financial activity related to
these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the
financial statements of the parent entity, from which the underlying legislative authority,
appropriations and budget apportionments are derived. ARC allocates funds as the parent
                                             13
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

agency to the U.S. Department of Transportation, Housing and Urban Development, the
Rural Development Agency, U.S. Army Corps of Engineers and the Economic
Development Agency. Additionally, ARC receives allocation transfers, as the child
agency from the U.S. Department of Transportation to cover Appalachian Development
Highway System administrative costs.

Net Position

Net position is the residual difference between assets and liabilities and is comprised of
unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent the amount of unobligated and unexpended budget authority.
Unobligated balances are the amount of appropriations or other authority remaining after
deducting the cumulative obligations from the amount available for obligation. The
cumulative results of operations are the net results of ARC’s operations since inception.

Net Cost of Operations

Earned revenues arise from the collection of state contributions and are deducted from
the full cost of ARC's major programs to arrive at net program cost. Earned revenues are
recognized by ARC to the extent reimbursements are payable from the public, as a result
of costs incurred or services performed on the public’s behalf.

Budgetary Financing Sources

Budgetary financing sources other than earned revenues provide funding for ARC’s net
cost of operations and are reported on the Statement of Changes in Net Position. These
financing sources include amounts received from Congressional appropriations to support
its operations. A financing source is recognized for these appropriated funds received.

Use of Estimates

Management has made certain estimates when reporting assets, liabilities, revenue, and
expenses, and in the note disclosures. The preparation of financial statements in
conformity with generally accepted accounting principles requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and
disclosure of contingent assets and liabilities at the date of the financial statements and
the reported amounts of revenues and expenses during the reporting period. Actual results
could differ from those estimates.




                                            14
                          Appalachian Regional Commission
                            Notes to Financial Statements
                            September 30, 2011 and 2010

Tax Exempt Status

As an agency of the federal government, ARC is exempt from all taxes imposed by any
governing body whether it is a federal, state, commonwealth, local, or foreign
government.

Reclassifications

Certain items at September 30, 2010 have been reclassified to conform to the presentation
at September 30, 2011. There was no effect on the changes in net position.

NOTE 2 – FUND BALANCE WITH TREASURY
ARC’s fund balance with treasury at September 30 consisted of the following:

    A. Fund Balances                                   2011                  2010
       Trust Fund                                     $1,572,117            $2,360,000
       Appropriated Funds                            165,943,221           166,092,534
       Total Entity Fund Balance with Treasury       167,515,338           168,452,535 *
       Non-Entity Fund Balance with Treasury               13,608               111,560
       Total Fund Balance with Treasury              167,528,946           168,564,095

    B. Status of Fund Balance with Treasury
       1) Unobligated Balance
           a) Available                               19,650,816            27,745,316
           b) Unavailable                                257,703                20,483
       2) Obligated Balance not yet Disbursed        147,606,819           140,686,735
       3) Non-Budgetary                                   13,608               111,560
       Total                                        $167,528,946          $168,564,095 *
       *Rounding




                                           15
                          Appalachian Regional Commission
                            Notes to Financial Statements
                            September 30, 2011 and 2010

NOTE 3 – ADVANCES
Advances at September 30 consist of the following:

                                                              2011                2010
1. Intragovernmental
    Advances to the U.S. Army Corps of Engineers             $298,752           $1,659,146
    Advances to the Tennessee Valley Authority              9,044,535           12,097,464
                                                            9,343,287           13,756,610
2. Other
    Advances to grantees to finance future program
    expenditures
       -Revolving Loan Fund                                27,221,652           30,176,119
       -Non-Revolving Loan Fund                             4,075,174            4,756,718
                                                           31,296,826           34,932,837

    Total                                                  40,640,113           48,689,447



Intergovernmental: ARC advances funds to other federal agencies for work performed on
its behalf under various reimbursable agreements for construction projects. These intra-
governmental advances are recorded as an asset, which is reduced when actual
expenditures or the accrual of unreported expenditures are recorded.

Other: ARC also has advances made to grantees that are not federal entities. The
majority of these advances are disbursed to grantees operating revolving loan funds, the
remaining amounts are to all other grantees.

   •   Revolving Loan Fund Grantees - ARC provides grants to revolving loan funds
       operating in its region for the purpose of saving and creating private-sector jobs.
       Because of the revolving nature of the funds, the grants have no fixed end date.
       Grant funds provided to revolving loan funds retain their federal identity and are
       subject to the Cash Management Improvement Act of 1990 (Public Law 101-
       453), for which the Appalachian Regional Commission has established a policy
       on excess cash. Accounting treatment of RFL transactions is that cash outlays are
       recorded as increases to SGL 1410 Advances and Prepayments and refunds of
       excess cash are recorded as decreases to SGL 1410 Advances and Prepayments.

   •   Non-Revolving Loan Fund Grantees – ARC advances funds to non-federal
       grantees for work performed on its behalf under various grant agreements. These
       advances are recorded as an asset, which is reduced when actual expenditures or
       the accrual of unreported expenditures are recorded.


                                           16
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

NOTE 4 – ACCOUNTS RECEIVABLE
Accounts receivable represents the gross amount of monies owed to ARC. The
receivable in FY2011 is monies owed by the States. This amount represents the fourth
quarter contribution to the Trust Fund which was paid in October 2011.

                                      FY 2011                   FY2010
     Accounts Receivable             $1,022,750                   $0

NOTE 5 – LIABILITIES NOT COVERED BY BUDGETARY
RESOURCES
The accrued liabilities of ARC are comprised of program expense accruals, payroll
accruals and unfunded annual leave earned by employees. Program expense accruals
represent expenses that were incurred prior to year-end but were not paid. Similarly,
payroll accruals represent payroll expenses that were incurred prior to year-end but were
not paid. Liabilities at September 30 consist of the following:

                                                                 2011              2010
  Liabilities Not Covered by Budgetary Resources
  With the Public
      Unfunded annual leave                                      $506,448          $474,172
      Unfunded pension liability                                  659,117           870,581
  Intragovernmental
      Liability for Deposit Funds                                   1,128            75,984
  Total liabilities not covered by budgetary resources          1,166,692 *       1,420,737
  Liabilities Covered by Budgetary Resources
  Advances
     Advances from Centers for Disease Control                    142,500                 -
     Advances from the National Endowment for the Arts             30,000                 -
     Advances from the Appalachian Region States                        -            20,483
     Total Advances                                               172,500            20,483
  Benefits Due
     Accrued health and flexible spending benefits                 87,323            87,323
     Accrued salaries and benefits                                368,064           351,593
     Total benefits due                                           455,387           438,916

  Payments Due to grantees to finance program expenditure       6,540,853         4,063,127
  Commercial Bank Balance                                          60,136            79,028
  Total liabilities covered by budgetary resources              7,228,876         4,601,555 *
  Total Liabilities                                            $8,395,569 *      $6,022,292
*Rounding




                                            17
                          Appalachian Regional Commission
                            Notes to Financial Statements
                            September 30, 2011 and 2010

NOTE 6 – OTHER LIABILITIES
As of September 30, 2011, other liabilities with the public consist of Accrued Funded
Payroll and Leave of $336,580; Employer Contribution and Taxes Payable of $2,393 and
Benefits Due and Payable $1,313,024. Other Liabilities Federal consists of Advances
from Other – Federal in the amount of $172,500; and Employer Contributions and Taxes
Payable of $30,220.

As of September 30, 2010, other liabilities with the public consist of Accrued Funded
Payroll and Leave of $321,384; Unfunded Leave in the amount of $474,172; Advances
from Other – Public in the amount of $20,483; Unfunded Pension Liability of $870,581;
Accrued Health and Flexible Spending Benefits of $87,323; and Other Agency
Transactions of $79,028. Other Intragovernmental liabilities consist of Liability for
Deposit Funds of $75,984 and Employer Contributions and Taxes Payable of $30,209.


              With the Public     Non-Current      Current         Total
      2011   Other Liabilities     1,313,024        338,973      $1,651,997
      2010   Other Liabilities     1,531,587        321,384      $1,852,971
             Intragovernmental    Non-Current      Current         Total
      2011   Other Liabilities       172,500         30,220        $202,720
      2010   Other Liabilities        75,984         30,209        $106,193


NOTE 7 – RETIREMENT PLANS
Federal

ARC participates in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement System (FERS) for federal and certain non-federal employees.
The CSRS and FERS plans are administered by the OPM. ARC’s contributions to these
plans for FY 2011 were $16,429 and $91,724 for CSRS and FERS, respectively and
contributions for FY 2010 were $22,256 and $91,504 for CSRS and FERS, respectively.

Several employees also participate in the Federal Employees Health Benefit plan (FEHB)
and the Federal Employees Group Life Insurance program (FEGLI), also administered by
OPM. ARC pays a portion of the cost of current employees. Post-retirement benefits are
paid by OPM. ARC’s contributions to these plans for FY 2011 were $50,425 and $1,246
and for 2010 were $56,247 and $1,594 for FEHB and FEGLI, respectively.

ARC does not report in its financial statements CSRS, FERS, FEHB or FEGLI assets,
accumulated plan benefits or unfunded liabilities, if any, applicable to its employees.

ARC also contributed $37,087 and $37,206 to the Federal Thrift Savings plan for all
eligible employees for the years ended September 30, 2011 and 2010, respectively.

                                          18
                              Appalachian Regional Commission
                                Notes to Financial Statements
                                September 30, 2011 and 2010

Non-Federal

The following table presents the pension benefit expense for the defined benefit pension
plan by component for fiscal years 2011 and 2010:

                                                                 2011              2010
  Service cost                                                    $697,334         $698,288
  Interest cost                                                    812,277          758,355
  Expected return                                                 (733,140)        (568,229)
  Amortization of prior service cost                               414,676          418,870
  Recognized loss                                                  335,340          434,546
  Net periodic benefit cost                                     $1,526,487       $1,741,830



The following table presents the pension liability by component for fiscal years 2011 and
2010:

                                                                 2011             2010
  Pension liability at October 1                                  $870,581         $700,075
  Net periodic benefit expense                                  $1,526,487       $1,741,829
  Contributions                                                 (1,737,951)      (1,571,323)
  Pension lability at September 30                                $659,117         $870,581




                                                                 2011              2010
  Additional Information
  Benefit obligation                                         ($16,333,674)     ($15,738,745)
  Fair value of plan assets                                    11,357,236         9,361,327
  Funded status                                              ($4,976,438)      ($6,377,418)
  Employer contribution                                         $1,710,447       $1,555,670
  Participant contribution                                          27,504           15,653
  Benefits paid                                                    236,063           52,008
  Net periodic benefit expense                                   1,526,487        1,741,830



The accumulated benefit obligation was $14,503,027 and $13,814,127 at September 30,
2011 and 2010, respectively.




                                            19
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

Weighted-average of economic assumptions used to determine benefit obligations at
September 30:

                                                                  2011               2010
  Discount rate                                                      5.20%              5.20%
  Rate of compensation increase                                      3.00%              3.00%


Weighted-average of economic assumptions used to determine net periodic benefit cost
for the years ended September 30:

                                                                  2011              2010
  Discount rate                                                      5.20%             5.50%
  Expected return on plan assets                                     7.25%             7.25%
  Rate of compensation increase                                      3.00%             3.00%


Historical returns of multiple asset classes were analyzed to develop a risk-free real rate
of return and risk premiums for each asset class. The overall rate for each asset class was
developed by combining a long-term inflation component, the risk-free real rate of return,
and the associated risk premium. A weighted-average rate was developed based on those
overall rates and the target asset allocation plan.

Plan Assets

Pension plan weighted-average asset allocations at September 30 are as follows:

                                                                  2011              2010
  Asset Category
  Cash                                                               73.49%            13.04%
  Debt securities                                                     8.54%            33.62%
  Equity securities                                                  16.98%            51.19%
  Other                                                               0.99%             2.15%
  Total assets                                                     100.00%            100.00%




                                            20
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

The following benefit payments, which reflect expected future service, as appropriate, are
expected to be paid:

                           Fiscal Year               Amount
                               2012                   6,681,136
                               2013                     814,327
                               2014                   2,975,168
                               2015                   2,068,185
                               2016                     183,688
                         Years 2017-2020              5,957,348


ARC contributed $220,700 and $209,937 to the 401(k) plan for the years ended
September 30, 2011 and 2010, respectively.

NOTE 8 – OPERATING LEASE
ARC’s lease for its office commenced on January 1, 2007 and extends through December
31, 2016. The future minimum lease payments required under this lease are as follows:

                            Fiscal Year              Amount
                               2012                    901,520
                               2013                    926,607
                               2014                    945,139
                               2015                    964,042
                               2016                    983,690
                            Thereafter                 246,675
                               Total                 $4,967,673

Rent expense for the years ended September 30, 2011 and 2010 was $764,960 and
$844,495, respectively.




                                           21
                                  Appalachian Regional Commission
                                    Notes to Financial Statements
                                    September 30, 2011 and 2010

NOTE 9 – EARMARKED FUND
Condensed financial information for the ARC trust fund for the years ended September
30 is:
                                                     2011            2010
Balance Sheets
ASSETS
Fund Balance with Treasury                      $    1,572,117   $   2,360,000
Cash in Commercial Institutions                         60,136          79,028
Accounts Receivable                                  1,022,750
  Total Assets                                  $    2,655,004 * $   2,439,029 *

LIABILITIES AND NET POSITION
  Intragovernmental
      Other Liabilities                         $      16,963    $     15,835
Total Intragovernmental                                16,963          15,835

  With the Public
      Accounts Payable                                  21,182          50,725
      Other Liabilities                              1,369,465       1,528,868
Total With the Public                                1,390,647       1,579,593

Total Liabilities                               $    1,407,610   $   1,595,427 *

Cumulative Results of Operations                     1,247,394        843,602
Total Net Position                                   1,247,394        843,602

  Total Liabilities and Net Position            $    2,655,004   $   2,439,029
Statements of Net Cost
Gross Program Costs                             $    7,778,208   $   8,095,753
Less Earned Revenues                                 4,091,000       3,979,000
Net Program Costs                               $    3,687,208   $   4,116,753
Net Cost of Operations                          $    3,687,208   $   4,116,753

Statements of Changes in Net Position
Net Position Beginning of Period                $     843,602    $    981,354

Transfers In/Out Without Reimbursement               4,091,000       3,979,000
Total Financing Sources                              4,091,000       3,979,000
Net Cost of Operations                          $    3,687,208   $   4,116,753
Net Change                                      $      403,792   $    (137,753)
Cumulative Results of Operations                $    1,247,394   $     843,602

*Rounding
Net Position End of Period                      $    1,247,394   $    843,602




                                                22
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010


NOTE 10 – INTRAGOVERNMENTAL COSTS AND EXCHANGE
REVENUE
Intragovernmental costs are those of goods/services purchased from a federal entity.

                                                       Total            Total
                                                       2011             2010
    Program A
        Intragovernmental costs                      10,438,974        5,430,261
        Public costs                                 72,488,408       63,307,861
             Total Program A costs                   82,927,382       68,738,122
        Intragovernmental earned revenue                               1,541,729
        Public earned revenue                         4,137,540        3,979,000
             Total Program A earned revenue           4,137,540        5,520,729
                Total Program A Net Costs            78,789,842       63,217,393




                                           23
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

NOTE 11 – STATUS OF BUDGETARY RESOURCES
A. Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources consist of the
following:

                                          2011             2010
    Direct Obligations
       Category A                         2,119,580       1,932,648
       Category B                        75,502,549      78,020,651
       Exempt                            12,321,044      12,035,458
    Total direct obligations             89,943,174 *    91,988,758 *
    *Rounding




B. Permanent Indefinite Appropriations

The Commission’s permanent indefinite appropriation includes the trust fund. These
funds are described in Note 9.

C. Explanation of Differences between the Statement of Budgetary Resources and the
Budget of the U.S. Government

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and
Other Financing Sources and Concepts for Reconciling Budgetary and Financial
Accounting, calls for explanations of material differences between amounts reported in
the Statement of Budgetary Resources (SBR) and the actual balances published in the
Budget of the U.S. Government (President’s Budget). The Budget of the U. S.
Government, with the Actual column completed for 2010 and 2009, was reconciled to the
Statement of Budgetary resources as follows:

                                                            2010
                                                                   Distributed
                                        Budgetary   Obligations    Offsetting     Net
  (Dollars in Millions)                 Resources    Incurred       Receipts     Outlays
  Statement of Budgetary Resources        $120              $92             $8      $69
  Reconciling Items
    Offsetting collections and receipts    (7)              (5)            (7)       1
  Budget of the U.S. Government           $113             $87             $1       $70




                                            24
                          Appalachian Regional Commission
                            Notes to Financial Statements
                            September 30, 2011 and 2010

                                                            2009
                                                                   Distributed
                                        Budgetary   Obligations    Offsetting     Net
  (Dollars in Millions)                 Resources    Incurred       Receipts     Outlays
  Statement of Budgetary Resources        $121              $92             $7      $68
  Reconciling Items
    Offsetting collections and receipts   (10)              (9)            (6)       1
  Budget of the U.S. Government           $111             $83             $1       $69


NOTE 12 – UNDELIVERED ORDERS AT THE END OF THE
PERIOD
Undelivered orders represent the value of goods and services ordered and obligated that
have not been received. The amount of Unpaid Obligated Balance, Net, End of Period
shown on the Statement of Budgetary Resources includes obligations relating to
Undelivered Orders (goods and services contracted for but not yet received at the end of
the year) and Delivered Orders, Obligations Unpaid (amounts owed at the end of the year
by ARC for goods and services received). The amount of each is as follows:

                                     Delivered Orders,
                                       Obligations
             Undelivered Orders           Unpaid            Unpaid Obl. Balance, Net
   2011        $140,697,902            $6,908,917               $147,606,819
   2010        $136,290,889            $4,395,846               $140,686,735



NOTE 13 – RESTATEMENTS
ARC’s fiscal year 2010 financial statements have been restated to include the effects for
correction of errors that overstated Cumulative Results of Operations by $77,097,343
while understating Unexpended Appropriations by the same amount, with no net effect
on total Net Position. Since there was no impact on total Net Position, the previously
issued unqualified audit opinion is unaffected.

                                                      Original Amount Restated              Change
Net Position
  Unexpended Appropriations-Other Funds              $133,589,444 $210,686,787 ($77,097,343)
  Cumulative Results of Operations - Earmarked Funds    $843,602      $843,602          $0
  Cumulative Results of Operations - Other Funds      $76,877,234    ($220,109) $77,097,343
                                                     $211,310,280 $211,310,280          $0



                                           25
                           Appalachian Regional Commission
                             Notes to Financial Statements
                             September 30, 2011 and 2010

Management and the accounting service provider discovered this error while preparing
the financial statements and accompanying notes for fiscal year ended September 30,
2010 and traced the source of the error to fiscal year 2007. During fiscal year 2007, ARC
voluntarily converted from Non-Profit accounting and reporting standards to Federal
financial accounting and reporting standards, which includes a unique set of budgetary
accounts not present in non-profit or commercial accounting. During the conversion, an
error occurred in the calculation of the beginning balances for Cumulative Results of
Operations and Unexpended Appropriations. Net position is the sum of these two
amounts. This error was recently discovered when additional tie-point reconciliations
were incorporated to ensure accurate reporting. These tie-point reconciliations were not
available at the time of conversion to reconcile ARC’s standard general ledger balances.
This error has resulted in a restatement of the prior year financial statements due to the
Cumulative Results of Operations being overstated and the Unexpended Appropriations
being understated.

Upon discovery of the error, management and the service provider commenced corrective
actions. A reclassification of $77,097,343 was posted to the Balance Sheet and the
Statement of Changes in Net Position for FY2010. The reclassification resulted in a
decrease of Cumulative Results of Operations and an increase in Unexpended
Appropriations. The reclassification results in a material misstatement on the financial
statements between the line item of Cumulative Results of Operations and Unexpended
Appropriations. While the amount is material in nature, the error results in a minimal
overall impact on the financial statements given that the restatement is a reclassification
of line items within Net Position. There is no change to the overall Net Position line
item.

In accordance with current standards, the error is being corrected with this issuance of the
financial statements. The previously year financial statements are being restated for
comparative purposes. In addition, the appropriate disclosure and communication
requirements were followed.




                                            26
                                         Appalachian Regional Commission
                                           Notes to Financial Statements
                                           September 30, 2011 and 2010


NOTE 14 – RECONCILIATION OF NET COST OF OPERATIONS
(PROPRIETARY) TO BUDGET
                                                                               2011              2010

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                    $   89,943,174    $   91,988,758
   Less: Spending Authority from Offsetting Collections
      and Recoveries                                                            6,663,444         6,439,353
Obligations Net of Offsetting Collections and Recoveries                       83,279,730        85,549,405
Less: Distributed Offsetting Receipts                                           4,091,000         7,958,000
   Net Obligations                                                             79,188,730        77,591,405



Other Resources
   Imputed Financing from Costs Absorbed by Others                                72,740           117,143

Total Resources Used to Finance Activities                                     79,261,470        77,708,548

Resources Used to Finance Items not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods
   Services and Benefits Ordered But Not Yet Provided                          (3,792,764)       14,658,429
Other Resources or Adjustments to Net Obligated Resources That
   Do Not Affect Net Cost of Operations                                         4,089,170
Total Resources Used to Finance Items Not Part of the Net Cost
  of Operations                                                                  296,406         14,658,429

Total Resources Used to Finance the Net Cost of Operations                     78,965,064        63,050,118

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in Annual Leave Liability                                            (175,222)          (3,231)
   Other (+/-)                                                                                     170,506
Total Components of Net Cost of Operations that will Require                     (175,222)         167,275
or Generate Resources in Future Periods

Total Components of Net Cost of Operations that will not Require or Generate
Resources in the Current Period                                               (175,222)             167,275
Net Cost of Operations                                                    $ 78,789,842 * $       63,217,393
*Amounts may be off by a dollar due to rounding.




                                                       27
                          Appalachian Regional Commission
                            Notes to Financial Statements
                            September 30, 2011 and 2010

NOTE 15 – SUBSEQUENT EVENTS
ARC has evaluated subsequent events occurring after the balance sheet date and through
the date of November 16, 2011, the date the financial statements were available for
release. Based upon this evaluation, ARC has determined that no subsequent events have
occurred which require disclosure in the financial statements.




                                         28
                APPENDIX A –

APPALACHIAN REGIONAL COMMISSION COMMENTS ON

            DRAFT AUDIT REPORT
